<html>
<title> - OFFENDER RE-ENTRY: WHAT IS NEEDED TO PROVIDE CRIMINAL OFFENDERS WITH A SECOND CHANCE?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
OFFENDER RE-ENTRY: WHAT IS NEEDED TO PROVIDE CRIMINAL OFFENDERS WITH A 
                             SECOND CHANCE?

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2005

                               __________

                           Serial No. 109-65

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-372                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                  Michael Volkov, Acting Chief Counsel

           Elizabeth Sokul, Special Counsel for Intelligence

                         and Homeland Security

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            NOVEMBER 3, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Tom Feeney, a Representative in Congress from the 
  State of Florida, and Member, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2
The Honorable Chris Van Hollen, a Representative in Congress from 
  the State of Maryland..........................................     4

                               WITNESSES

Mr. David Hagy, Deputy Assistant Attorney General, Office of 
  Justice Programs, United States Department of Justice, 
  substituting for Ms. Regina Schofield, Assistant Attorney 
  General for the Office of Justice Programs, United States 
  Department of Justice
  Oral Testimony.................................................     5
  Prepared Statement of Ms. Regina Schofield.....................     8
Mr. Pat Nolan, President of Justice Fellowship, Prison Fellowship 
  Ministries
  Oral Testimony.................................................    40
  Prepared Statement.............................................    41
Mr. Arthur Wallenstein, Director, Montgomery County Department of 
  Correction & Rehabilitation
  Oral Testimony.................................................    46
  Prepared Statement.............................................    48
Ms. Carol Shapiro, President and Founder, Family Justice
  Oral Testimony.................................................    60
  Prepared Statement.............................................    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................     3
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........    73

                                APPENDIX
               Material Submitted for the Hearing Record

Letter to the Subcommittee from Bill Hansell, President, National 
  Association of Counties (NACo), and Beverly O'Neill, President, 
  The Uniteed States Conference of Mayors (USCM).................    80
Letter to the Subcommittee from Calvin Bass, President, and Kevin 
  Stout, Vice President, Lifer's Group, Inc......................    81
Sample Questions submitted by Charlie Sullivan, Co-Director, 
  Citizens United for Rehabilitation of Errants (C.U.R.E.).......    83
Revised Prepared Statement of Arthur Wallenstein, Director, 
  Montgomery County Department of Correction & Rehabilitation....    84

 
OFFENDER RE-ENTRY: WHAT IS NEEDED TO PROVIDE CRIMINAL OFFENDERS WITH A 
                             SECOND CHANCE?

                              ----------                              


                       THURSDAY, NOVEMBER 3, 2005

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 12:21 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Tom 
Feeney (acting Chair of the Subcommittee) presiding.
    Mr. Feeney [presiding]. The hearing will come to order.
    This is an oversight hearing of the Subcommittee on Crime, 
Terrorism, and Homeland Security. The topic is ``Offender 
Reentry: What is Needed to Provide Offenders With a Real Second 
Chance?'' We welcome our guests here today, and we will 
administer an oath to them and introduce them in a second.
    Chairman Coble is probably not going to be with us today, 
but it is a great opportunity to sit in, in his stead. I want 
to welcome everybody to this important oversight hearing to 
examine the issues of prisoner reentry as a follow-up to the 
earlier legislative hearing this morning on H.R. 1704, the 
``Second Chance Act of 2005.'' This oversight hearing is 
intended to provide the Subcommittee with a closer look at the 
practical issues Federal, State, and local governments face 
with offender reentry. More specifically, in my mind, we need 
to examine carefully which strategies and programs work, which 
do not, and how future resources should be directed to ensure 
successful transitions for offenders.
    The scope of this issue touches each and every community. 
The financial burdens on Government of incarceration and 
reincarceration of offenders are substantial, and the impact on 
families and communities is huge. We need to ensure that 
governments have in place appropriate programs to ease this 
transition for offenders, to bring families together once 
again, and to make sure that offenders get the necessary 
support so that they can truly have a second chance to live a 
law abiding life.
    I recognize that reentry is a public safety issue, not just 
a corrections issue. Community safety in promoting healthy and 
productive families benefits everyone. This is a bipartisan 
issue where innovative solutions are needed. We all know that 
approximately 650,000 inmates will be released from State 
prisons in the next year. Our challenge is to make sure that we 
reduce significantly the rate of recidivism.
    Let me cite a few facts which demonstrate the broad impact 
of this problem. According to the Bureau of Justice Statistics, 
corrections expenditures increased from $60 billion in 1982 to 
$90 billion in the year 2001. Between 1991 and 1999, the number 
of children with a parent in a Federal or State correctional 
facility increased by 60 percent from approximately 836,000 to 
1.5 million.
    Fifty-seven percent of Federal and 70 percent of State 
inmates used drugs regularly before prison. We need to examine 
the demand for education, job placement, health care, drug 
abuse treatment, and related services needed to provide support 
to offenders. There is no one size fits all solution to this 
problem, but I expect we will hear about different approaches 
to common problems today.
    In my view, we need to know specifically what drug 
treatment programs work, what do not, and how best we can 
support providers of such services. The same series of 
questions needs to be asked with respect to each and every 
component of any full-scale reentry program. I'm anxious to 
hear from our distinguished panel of witnesses, and I would now 
yield to the Ranking minority Member of this Subcommittee, the 
gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Chairman, I thank you for scheduling this oversight 
hearing on the issue of what is needed to provide criminal 
offenders with a real second chance. We heard this morning from 
policy makers about what the problems are regarding prisoner 
reentry, the need to provide them with a second chance to 
develop and lead a law abiding lifestyle and the level of 
bipartisan support to meet this goal. Now, we will hear from 
experts as to how to get the job done.
    Unfortunately, Mr. Chairman, since this morning, we had a 
brief interlude where we continued doing more of the 
traditional same. I am delighted that we are back on track 
actually trying to reduce crime in a cost-effective manner.
    But our first step in that would be to pass H.R. 1704, the 
``Second Chance Act of 2005.'' That is a bipartisan bill that 
we heard about this morning that makes a significant step in 
the right direction toward ensuring that those who leave 
prisons have the assistance and support they need to avoid 
returning. Problems we heard about included problems finding 
work, substance abuse, other mental health treatment, other 
disqualification for public benefits such as housing, TANF, 
school loans, and other benefits due to substance abuse and the 
enormous burden in overcoming societal stigmas associated with 
being sent to prison, often for a long period of time.
    These problems are not the only problems for offenders but 
the problems for society and individual victims that result 
from our failure to ensure a second chance for offenders. As we 
heard this morning, the primary reason for us to develop this 
legislation is not simply to assist offenders who are returning 
to the community. It is to reduce the prospects that any law 
abiding citizens will be victims of crime in the future and 
also to reduce the costs of incarceration resulting from 
recidivism.
    Mr. Chairman, I ask unanimous consent that my statement 
from this morning be entered into the record at this point. It 
has statistics about the incarceration rate and other problems 
that we're addressing, and at that point, I understand my 
colleague----
    Mr. Feeney. Without objection, it is so ordered. We will 
admit the testimony.
    [The prepared statement of Mr. Scott follows:]

 Prepared Statement of the Honorable Robert C. Scott, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Thank you Mr. Chairman. And thank you for scheduling this oversight 
hearing on the issue of what is needed to provide criminal offenders 
with a real second chance. We heard this morning from policy makers 
about what the problems are regarding prisoner reentry, the need to 
provide them with a second chance to develop and lead a law-abiding 
lifestyle, and the level of bi-partisan commitment there is to this 
goal. Now we will hear from the experts on how to best get that job 
done.
    A first step is to pass H.R. 1704, the Second Chance Act. This is a 
bi-partisan bill that makes a significant step in the right direction 
toward ensuring that those who leave our prisons have the assistance 
and support they need to avoid returning. The problems we heard about 
include problems in finding work, help for their substance abuse and 
other mental health treatment, disqualifications for public benefits, 
such as housing, TANF, school loans and other benefits due to substance 
abuse, and the enormous burden of overcoming societal stigmas and other 
problems associated with being sent to prison, sometimes for a long 
period. These problems are not only problems for offenders, but also 
problems for society and the individual victims that result from our 
failure to ensure a second chance for offenders. So, the primary reason 
for us to develop this legislation is not simply to assist offenders 
who are returning to the community. As we heard this morning, the 
primary reason is to lower the prospects that any of us will be the 
victim of recidivism. It would also lower the cost of taxpayers re-
incarcerating the offender.
    We know have, on a daily basis, over 2.2 million locked up in our 
nation's prisons and jails, a 5 fold increase over the past 20 years. 
The federal prison population, alone, has increased more than 7-fold 
over the past 20 years. In 1984, the daily lockup count for our prisons 
and jails was just over 400,000 with about 25,000 federal prisoners. 
Today, there are over 2 million state and local prisoners and almost 
190,000 federal prisoners, and the population is growing.
    All of this focus on incarceration has resulted in the U.S. being 
the world's leading incarcerator, by far, with an incarceration rate of 
725 inmates per 100,000 population. The U.S. locks up its citizens at a 
rate 5-8 times that of the industrialized nations to which we are most 
similar--Canada and western Europe. Thus, the rate per 100,000 
population is 142 in England/Wales, 117 in Australia, 116 in Canada, 91 
in Germany, and 85 in France. And despite all of our tough sentencing 
for crimes, over 95% of inmates will be released at some point. Nearly 
700,000 prisoners will leave state and federal prisons this year, and 
the number will continue to grow. The question is whether they re-enter 
society in a context that better prepares them and assists them to lead 
law-abiding lives, or continue the cycle of 2/3 returning in 3 years? 
If we are going to continue to send more and more people to prison with 
longer and longer sentences, we should do as much as we reasonably can 
to assure that when they do leave they don't come back due to new 
crimes.
    So, Mr. Chairman, I look forward to the testimony of our witnesses 
as to what we may be able to do to begin to seriously address this 
growing societal problem, and to work with you to get it done. Thank 
you.

    Mr. Scott. And I understand my colleague will be 
introducing one of the witnesses. I think you have been advised 
of that.
    Mr. Feeney. Yes, we are delighted to have Mr. Van Hollen 
here, and after we swear them in and we introduce the three 
other witnesses, we will recognize the gentleman from Maryland. 
Welcome.
    Mr. Scott. Thank you. I yield back.
    Mr. Feeney. I thank the gentleman, and with that, it is our 
practice in the Committee here to swear in all witnesses that 
appear before us. If all of you would please stand and raise 
your right hand.
    [Witnesses sworn.]
    Mr. Feeney. Thank you, and please let the record show each 
of the witnesses answered in the affirmative, and please have a 
seat.
    We have four distinguished witnesses with us today. Our 
first witness is Mr. David Hagy. We are delighted to have you 
today, especially given the fact that you are substituting, I 
understand, and we are prepared to handle a lot of emergencies 
in this Committee, but Ms. Schofield is now apparently 
delivering a baby, or has she delivered?
    Mr. Hagy. She is still there. She is working on it. 
[Laughter.]
    Mr. Feeney. Well, that is one of the few things that we are 
just simply not prepared for. So we are especially glad to see 
you, Mr. Hagy, the Deputy Assistant Attorney General of the 
Office of Justice Programs at the Department of Justice 
Programs of the Department of Justice. Prior to serving at the 
Justice Department, Mr. Hagy served as director for local 
coordination in the Office of State and Local Government 
Coordination at the Department of Homeland Security. For 5 
years, he was the chief of staff and policy director for Harris 
County Judge Echols, where he managed and promoted initiatives 
in the area of emergency management, transportation, criminal 
justice and environment. Mr. Hagy holds a bachelor of science 
from Texas A&M University and a Ph.D. from Tulane University. 
Welcome, and please pass on our best wishes to Ms. Schofield 
and her family.
    Mr. Hagy. I will. Thank you.
    Mr. Feeney. Our second witness is Mr. Pat Nolan, president 
of Justice Fellowship, the criminal justice reform arm of 
Prison Fellowship Ministries. Mr. Nolan served in the 
California State Assembly and is the author of When Prisons 
Return. Mr. Nolan was appointed by Speaker Hastert to the nine-
member U.S. Prison Rape Elimination Commissions. He's a 
graduate of the University of Southern California, where he 
also received his Juris Doctorate. Mr. Nolan, welcome. We are 
delighted to have you with us.
    Our third witness is Mr. Arthur Wallenstein--oh, I am 
sorry. I thought that you were going to introduce Ms. Shapiro.
    I would now like to recognize from Maryland, Congressman 
Van Hollen.
    Mr. Van Hollen. Well, thank you very much.
    I want to thank the Chairman today, Mr. Feeney, and Ranking 
Member, Mr. Scott, and thank them first of all for allowing me 
to participate in the Subcommittee hearing today and thank all 
of you who are going to be testifying today.
    It is a special privilege for me to be able to introduce 
someone I have known for a long time and who has done such a 
terrific job in this whole area of prisoner rehabilitation, 
Arthur Wallenstein, who is the Director of the Department of 
Corrections in Montgomery County, one of the counties in my 
Congressional district, and we are very proud of the work he 
has done.
    As you said, Mr. Chairman, at the outset, it is important 
to find out here what works and what doesn't work, because 
obviously, as people return to the community after being in 
prison, it is important that we make sure we provide those 
opportunities and those services that work. That's obviously 
the entire idea here. So I want to thank Mr. Wallenstein for 
his leadership in this area.
    Before he was in Montgomery County, he also served as the 
Director of the King County Department of Adult Detention in 
Seattle, Washington, and as the director of the Bucks County 
Department of Corrections in Bucks County, Pennsylvania. He is 
a graduate of Georgetown University and the University of 
Pennsylvania Graduate School of Arts and Sciences, and we 
welcome you here. Thanks for being here.
    Thank you, Mr. Chairman.
    Mr. Feeney. Welcome, Mr. Wallenstein, and thank you, Mr. 
Van Hollen.
    Our final witness today is Carol Shapiro, founder and 
president of Family Justice, a national nonprofit organization 
that seeks to reduce recidivism and break the cycle of 
involvement in the criminal justice system. Ms. Shapiro has 
served as a consultant to the Department of Justice's Bureau of 
Justice Assistance and the National Institute of Corrections. 
Additionally, she previously served as assistant commissioner 
for the New York City Department of Corrections. Ms. Shapiro is 
a graduate of Carnegie Mellon University and the Bryn Mawr 
Graduate School of Social Work and Research. Ms. Shapiro, I 
guess is----
    Ms. Shapiro. Philadelphia region.
    Mr. Feeney. And believe it or not, I'm Philadelphia born 
myself.
    But with that, we are delighted to have all of you here, 
and Mr. Hagy, we are going to ask you to observe our 5-minute 
time limit, and then, the Members will each have 5 minutes to 
question you. You will see the light system, which will give 
you a yellow 1-minute warning, and then, when the red comes on, 
we would ask you to sort of wrap up your thought.

  TESTIMONY OF DAVID HAGY, DEPUTY ASSISTANT ATTORNEY GENERAL, 
    OFFICE OF JUSTICE PROGRAMS, UNITED STATES DEPARTMENT OF 
JUSTICE, SUBSTITUTING FOR REGINA SCHOFIELD, ASSISTANT ATTORNEY 
   GENERAL FOR THE OFFICE OF JUSTICE PROGRAMS, UNITED STATES 
                     DEPARTMENT OF JUSTICE

    Mr. Hagy. Okay; thank you, Mr. Chairman, Mr. Scott, and 
Members of the Subcommittee. Again, I'm David Hagy, as you 
know. I'm Deputy Assistant Attorney General in the Office of 
Justice Programs and substituting for Regina, and we wish her 
the best of luck, and we're anxious to hear the news.
    I'm honored to stand in for her this afternoon and discuss 
efforts to reintegrate offenders successfully back into their 
communities. Most offenders, including the most violent 
offenders, will eventually return to their home communities. 
OJP's Bureau of Justice Statistics found that more than two-
thirds of all released offenders were rearrested within 3 
years.
    This cycle of crime and imprisonment takes obviously a 
heavy toll. It is a threat to public safety and a drain on 
resources. The Administration has been greatly concerned about 
this issue since early in President Bush's first term. That's 
why, in 2002, the Department of Justice, in a partnership with 
other Federal agencies, launched Going Home: the Serious and 
Violent Offender Reentry Initiative known as SVORI. This 
initiative focuses on those offenders most likely to pose a 
risk when they return to their communities.
    In his 2004 State of the Union Address, the President 
proposed a broad, new reentry initiative, the President's 
Prisoner Reentry Initiative or PRI. This new Federal initiative 
is led by the Department of Labor. It will harness the 
resources and experience of faith-based and community 
organizations in working with nonviolent offenders in 30 urban 
communities across the nation. The Department of Labor expects 
to announce these awards soon.
    These two initiatives complement but do not duplicate each 
other. Like SVORI, PRI will help communities provide services 
to returning offenders, including mentoring and job training. 
PRI will serve nonviolent offenders through local 
organizations, while SVORI serves serious and violent offenders 
through funding awarded primarily to Government agencies. PRI 
is just beginning, while SVORI funding will end next year.
    Under SVORI, we have awarded more than $120 million to 69 
grantees, covering all 50 States, the District of Columbia, and 
the Virgin Islands. Awards have helped jurisdictions develop 
and implement their own reentry strategies. Each strategy was 
designed by States and local communities to meet their own 
specific needs, but all strategies share a three-pronged 
approach that covers every stage of the reentry process.
    While the offenders are still behind bars, we assess their 
needs, skills, and risk to public safety and develop individual 
reentry plans. Upon their release, the offenders are closely 
supervised and directed to follow their reentry plans. They are 
often required to report to a judge or a corrections officer 
and receive treatment and training. Finally, a network of 
public and private agencies provides long-term support. 
Cooperation and coordination across the community spectrum help 
reentry sites make sure that efforts are both comprehensive and 
coordinated.
    The feedback from SVORI sites to date has been very 
encouraging. Many SVORI-funded programs have been used to 
bridge the gaps in existing State and local efforts. They are 
providing much needed transition services, counseling, 
mentoring and job training. What's just as positive is that the 
SVORI programs have developed their own innovative strategies. 
I have included a number of these examples in my written 
testimony which, with your permission, I am submitting for the 
record.
    Determining what works and what doesn't work is critical to 
our reentry efforts going forward. We are conducting a 
comprehensive evaluation of SVORI to determine whether the 
programs funded have met their goals, are cost-effective, and 
most important, have reduced recidivism. We have already put 
information from the SVORI evaluation on the Web and will 
continue to share findings from the evaluation as soon as they 
become available.
    We can all agree that there is much work still to be done. 
The Department will directly support PRI efforts through pre-
release services to prisoners who will be served in PRI 
communities. We will also take what we have already learned 
from SVORI and what we will learn from our evaluations and 
share it with the field. We want to encourage more reentry 
efforts throughout the country that are based on sound planning 
and a thorough knowledge of what works.
    This Administration believes that successfully 
reintegrating offenders back into their communities is one of 
the most pressing issues facing our nation. State and local 
governments have shown that thoughtful policies and programs 
can be developed to address this issue. The Federal partners, 
including the Department of Justice, are committed to doing all 
we can to support this continued good work. This commitment is 
even reflected in the words of President Bush: ``America is the 
land of second chances, and when the gates of prison open, the 
path ahead should lead to a better life.''
    We greatly appreciate your interest in this critical public 
safety issue. I welcome the opportunity to answer any questions 
that you may have, and I thank you for having me here today.
    [The prepared statement of Ms. Schofield follows:]

               Prepared Statement of Regina B. Schofield

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Feeney. Thank you, Mr. Hagy.
    Mr. Nolan, you are recognized.

TESTIMONY OF PAT NOLAN, PRESIDENT OF JUSTICE FELLOWSHIP, PRISON 
                     FELLOWSHIP MINISTRIES

    Mr. Nolan. Thank you, Mr. Chairman and Members. It is an 
honor to be here with you.
    I bring a unique background to Prison Fellowship. In 
addition to being a member of the legislature in California for 
15 years and Republican leader of the Assembly for 4 years, I 
was then prosecuted for acceptance of a campaign contribution. 
That was part of an FBI sting. I pleaded guilty to one count of 
racketeering and served for 26 months in Federal custody, 
another four in a halfway house.
    So I had a chance to see the system from both sides. As a 
member of the legislature, I was reliably tough on crime. I 
believed it would keep our public safer. As a prisoner, I saw 
that the policies that I had so ardently supported were not 
making the public safer, because the men and women with whom I 
was housed for over 2 years weren't being prepared to return to 
the streets. Nothing was being done to reform their character 
or their hearts, and in fact, the skills that men and women 
develop in prison to survive make them antisocial when they get 
out.
    This is a problem of huge magnitude, as we have 
criminalized so many activities and filled the prisons with 2.2 
million Americans now; that is one out of every 134 Americans 
is incarcerated as we speak. As a legislator, I forgot about 
the back end, that these men and women would be coming out. As 
you have heard, there are over 650,000 men and women coming out 
this year. That's over 1,600 per day released.
    That 600,000 is more than three times the size of the 
United States Marine Corps, and we all have grieved over the 
last few weeks at the destruction and devastation and suffering 
from the result of Katrina. We have seen those displaced 
families placed into other communities desperate for food, 
shelter, clothing and medical care, and we vehicle been 
frustrated that Government has been overwhelmed as they 
attempted to absorb these hundreds of thousands of families and 
provide them with those necessities of life.
    This time, our prisons will release three to four times the 
number of families into communities from prison, families 
desperate for food, clothing, shelter, and medical care, and 
our communities are being overwhelmed by this. We have done so 
little to prepare our communities for these people coming back. 
But it won't just be coming back this year. More than that 
number will be coming back the next year and more than that the 
following year, and more than that the following year. We are 
going to have three to four Katrinas every year visited on our 
communities into the foreseeable future.
    This bill is very important first of all, because it will 
give the money to the States to begin coordinating their 
efforts to respond to this. Reentry is not just a corrections 
problem. Corrections is obviously central to this, because they 
house the offenders. But it is a community problem. As the 
International Association of Chiefs of Police has said in 
support of this measure, the police are the first intake when 
the system fails, when these people get back in trouble, and 
unfortunately, that happens very quickly. Within 3 years, over 
two-thirds are rearrested.
    Within the first 6 months, over half of those that fail on 
reentry will have failed already within 6 months. Those first 
few days and weeks are so critical. Little is being done to 
prepare the inmates for return. While 80 to 85 percent of the 
inmates have a substance abuse problem in prison, less than 20 
percent receive any treatment while they are in there. Only a 
third have received any vocational or educational training.
    There are several policies that the Government has that 
impede our ability to help these men and women. Dr. Martin 
Luther King said to change someone, you must first love them, 
and they must know that you love them. We can't expect the 
corrections staff to love these men and women, but we can 
expect people from the community, especially the churches to 
come in and love them, and they do.
    And yet, corrections policies often make that very 
difficult. The Bureau of Prisons currently prohibits a 
religious volunteer that has been mentoring and coaching a 
prisoner inside from maintaining contact with them when they 
leave. Most States have the same prohibitions on their 
religious volunteers. That makes no sense. I would urge all of 
you to contact the Bureau of Prisons--they say they are 
considering changing that--and ask them to change that policy, 
because the studies show, and I will finish with this, Dr. 
Byron Johnson studied a prison fellowship program called the 
Interchange Freedom Initiative, studied our program in Texas. 
He found that those in a matched group recidivated within 2 
years 20.3 percent of the time.
    Those that went through our program and completed it, 
stayed in touch with the mentor, stayed active in their church, 
followed up with their probation officer, only 8 percent 
recidivated. Now, you don't have to believe in religion to 
think that has an impact, but you can believe in the science of 
the study. It will save the public money. And the reason it 
saves money, Dr. Johnson made clear, is the relationship 
between that loving mentor and that person, to help them 
through the difficult steps back to the community.
    Thank you for handling this important issue in such a 
wonderful way.
    [The prepared statement of Mr. Nolan follows:]

                    Prepared Statement of Pat Nolan

    Mr. Chairman and honorable members, I am grateful for this 
opportunity to testify in support of the Second Chance Act. This 
important legislation will help make our communities safer and reduce 
the number of victims by helping offenders make a safe and successful 
transition from prison to the community.
    My name is Pat Nolan. I am a Vice President of Prison Fellowship 
and serve as President of their criminal justice reform arm, Justice 
Fellowship. I bring a unique background to Prison Fellowship. I served 
for 15 years as a member of the California State Assembly, four of 
those as the Assembly Republican Leader. I was a leader on crime 
issues, particularly on behalf of victims' rights. I was one of the 
original sponsors of the Victims' Bill of Rights (Proposition 15) and 
was awarded the ``Victims Advocate Award'' by Parents of Murdered 
Children.
    I was prosecuted for a campaign contribution I accepted, which 
turned out to be part of an FBI sting. I pleaded guilty to one count of 
racketeering, and served 25 months in a federal prison and four months 
in a halfway house. During my time in prison, I had an opportunity to 
see the impact of the programs that I had so ardently supported while 
in the legislature. What I saw troubled me, because I observed that 
little was being done to prepare my fellow inmates for their release.
    Now, God has placed me in a position that I can share these 
observations with criminal justice officials, using my experiences as a 
lawyer, legislator and prisoner to improve our justice system. Justice 
Fellowship works with government officials at the federal and state 
levels, helping them develop policies that repair the harm done to 
victims, reform the hearts of offenders, and, in doing that, restore 
peace to communities. For the last three years, my efforts have been 
devoted largely to helping government leaders refocus their policies 
and resources to better prepare inmates for their return to freedom.
    Since January, I have been to 17 states, working with governors, 
attorneys general, directors of corrections, judges, victims, 
legislators, prosecutors and pastors to assist them in revamping their 
prisoner reentry programs. I am honored to have this opportunity to 
share my observations on what is being done, and not being done, to 
prepare inmates to live healthy, productive, law-abiding lives.
    First, I would like to thank you for holding this hearing. The 
importance of prisoner reentry is enormous. Nationally, more than 
600,000 inmates will be released from America's prisons this year. To 
put that in context, that is three times the size of the U.S. Marine 
Corps. An average of over 1,600 offenders per day leave prison and 
return to neighborhoods across the country. Their sentences are 
completed, and these men and women are coming out. But our communities 
are largely unprepared.
    We all grieve at the devastation and suffering hurricane Katrina 
visited upon the people of the Gulf Coast. We were all frustrated as we 
watched governments overwhelmed trying to meet the needs of the 
families, stripped of all their worldly possessions, searching for 
food, shelter, clothing and medical care. This year our criminal 
justice system will release the equivalent of two to three Katrinas to 
our local communities, straining their ability to feed, clothe, house 
and provide medical care to hundreds of thousands of families. And next 
year an even greater number will return needing these services, and the 
same the following year and each year into the foreseeable future.
    What are we doing to prepare these communities to help these men 
and women and their families when they are released? What has been done 
to prepare these returning inmates to live healthy, productive, law-
abiding lives? What kind of neighbors will they be? Each of us has a 
stake in seeing that these men and women make a safe and successful 
return to their communities. Yet, very little is being done to help 
them make that transition successfully. As President Bush said in his 
2004 State of the Union address, ``We know from long experience that if 
they can't find work, or a home, or help, they are much more likely to 
commit more crimes and return to prison.''
    The fact of the matter is most of the inmates we have released do 
commit more crimes. Over the last thirty years, the rate of rearrest 
has hovered stubbornly around sixty-seven percent. If two-thirds of the 
patients leaving a hospital had to be readmitted, we would quickly find 
a new hospital. So also, we must find a better way to prepare inmates 
for their release if we are to have safer communities. The Second 
Chance Act will provide the states and our communities help in 
developing better ways to do that.
    Currently, most returning offenders spend years in overcrowded 
prisons where they are exposed to the horrors of violence and isolated 
from family and friends. Most are idle in prison, warehoused with 
little preparation to make better choices when they return to the free 
world. Just one-third of all released prisoners will have received 
vocational or educational training in prison. While approximately three 
of every four inmates have a substance abuse problem, less than 20 
percent will have had any substance abuse treatment before they are 
released. The number of returning inmates is now four times what it was 
20 years ago, yet there are fewer programs to prepare them return to 
their communities.
    These men and women face additional barriers, often called 
``invisible punishments:'' They are frequently denied parental rights, 
driver's licenses, student loans, the right to vote, and residency in 
public housing--which is often the only housing that they can afford.
    Further, little is done to change the moral perspective of 
offenders. Most inmates do not leave prison transformed into law-
abiding citizens; in fact, the very skills inmates develop to survive 
inside prison make them anti-social when they are released. Most are 
given a bus ticket to their hometown, gate money of between $10 and 
$200, and infrequently a new set of clothes. Upon leaving prison 
virtually all will have great difficulty finding employment.
    If we do not prepare these inmates for their return to the 
community, the odds are great that their first incarceration will not 
be their last.
    The moment offenders step off the bus they face several critical 
decisions: Where will they live, where will they be able to find a 
meal, where should they look for a job, how will they get to a job 
interview, and where can they earn enough money to pay for necessities? 
These returning inmates are also confronted with many details of 
personal business, such as obtaining identification cards and 
documents, making medical appointments, and working through the many 
everyday bureaucratic problems that occur during any transition. These 
choices prompt feelings of intense stress and worry over the logistics 
of their return to the outside world. To someone who has had no control 
over any aspect of their lives for many years, each of these problems 
can be difficult. In accumulation, they can be overwhelming.
    My own experience provides a good example. Shortly after my release 
from prison to the halfway house, some friends took me to lunch at a 
local deli. The waiter came over to take our orders. Everyone else told 
him what they wanted, but I kept poring over the menu. My eyes raced 
over the columns of choices. I knew that I was supposed to order, but 
the number of options overwhelmed me. My friends sat in embarrassed 
silence. I was paralyzed. The waiter looked at me impatiently. I began 
to panic. How ridiculous that I wasn't able to do such a simple thing 
as order lunch. Finally, in desperation I ordered the next item my eyes 
landed on, a turkey sandwich. I didn't even want it, but at least it 
put an end to this embarrassing incident.
    For two years I hadn't been allowed to make any choices about what 
I ate. Now I was having a hard time making a simple choice that most 
people face every day. If I had this much difficulty after only a 
couple of years in prison, think how hard it is for those inmates who 
haven't made any choices for five, ten, or fifteen years. And what 
about those who didn't have the wonderful home, the loving family, the 
strong faith and the good education that I had? They face a baffling 
array of options and little preparation. Is it any surprise that so 
many newly released prisoners make some bad choices and end up back in 
prison?
    The choices offenders make immediately after release are extremely 
important. Of the ex-prisoners who fail, over half will be arrested 
within the first six months. That is not much time to turn their lives 
around. One study of rearrests in New York City found that the rate was 
especially high during the first hours and days following release. This 
early window of time is the most intense period for ex-prisoners, when 
they may be overwhelmed by the accumulation of large and small 
decisions facing them. On average, ex-offenders have only a one-in-
three chance of getting through their first three years without being 
arrested.
    As the number of people released from prison and jail increases 
steadily, we cannot afford to continue to send them home with little 
preparation. These policies have harmed too many victims, destroyed too 
many families, overwhelmed too many communities, and wasted too many 
lives as they repeat the cycle of arrest, incarceration, release and 
rearrest. The toll this system takes is not measured merely in human 
lives: The strain on taxpayers has been tremendous. As jail and prison 
populations have soared, so have corrections budgets, creating fiscal 
crises in virtually every state and squeezing money for schools, health 
care, and roads from state budgets.
    It does not have to be this way. Fortunately, there are many things 
that the government in partnership with the community, and in 
particular our churches, can do that increase the likelihood that 
inmates will return safely to our communities.
    One of the most important provisions of the Second Chance Act will 
provide grants to community and faith-based non-profits to link 
offenders and their families with mentors. Let me tell you why this is 
so important.
    It is essential that returning inmates have a friend they can turn 
to as they take their difficult first steps in freedom. A loving mentor 
can help them think through their decisions and hold them accountable 
for making the right moral choices.
    The importance of mentors to returning prisoners was stressed by 
Dr. Byron Johnson in his recent study of the Texas InnerChange Freedom 
Initiative (IFI), the reentry program operated by Prison Fellowship 
under contract with the state. Dr. Johnson's study found that IFI 
graduates were two and a half times less likely to be reincarcerated 
than inmates in a matched comparison group. The two-year post-release 
reincarceration rate among IFI graduates in Texas was 8 percent, 
compared with 20.3 percent of the matched group.
    Dr. Johnson emphasized that mentors were ``absolutely critical'' to 
the impressive results. The support and accountability provided by 
mentors often make the difference between a successful return to 
society and re-offending. As these offenders make the difficult 
transition back into the community, they need relationships with 
caring, moral adults. The greater the density of good people we pack 
around them, the greater the chance that they will be successfully 
replanted into the community.
    IFI recruits members of local churches to give at least one hour a 
week to mentor the IFI inmates, both while they are still incarcerated 
and after they return to their community. In his interviews with the 
IFI participants, Dr. Johnson found that the mentors' weekly visits 
were very important to the inmates. ``Without exception, IFI 
participants have indicated the critical impact volunteers have made in 
their lives. The sincerity and time commitment of volunteers has simply 
overwhelmed program participants.'' The benefit of these relationships 
with their mentors derives not only from the things discussed, but also 
for the love conveyed. By faithfully keeping their commitment to the 
weekly mentoring sessions, the mentors show a commitment to the inmates 
that many have never experienced before in their lives. As Dr. Martin 
Luther King, Jr., said, ``To change someone, you must first love them, 
and they must know that you love them.''
    While many people would never associate the word ``love'' with 
prisoners, love is precisely what has been lacking in the lives of many 
of these men and women. They have gone through life without anyone 
caring about them or what they do, nor caring enough about them to 
coach them as they confront life. Many inmates are emotionally 
overdrawn checkbooks. We must make deposit, after deposit, after 
deposit before we will see any positive balance.
    A mentor can help the ex-offenders think through employment options 
and tell them what their employer will expect of them on the job. Many 
offenders have never had someone in their lives who has held a steady 
job. They have no model for being a good employee. A mentor can teach 
them that they need to get up on time, go to work each day, and call 
their supervisor if they must be late or absent. Offenders may find it 
difficult to take direction or may lack skills to cope with a difficult 
boss or fellow employees. A mentor can help them with these and other 
everyday difficulties of the workplace and teach them the importance of 
punctuality, politeness, and diplomacy on the job.
    Mentors help returning inmates deal with many of the personal 
problems they typically encounter upon leaving prison: no reliable 
friends outside their former gang network, marital problems, and no 
easy way to get on with life.
    Mentors can also help the offenders learn decision-making skills 
and teach them how to keep track of bills and pay them on time. In 
prison, inmates do not have to deal with any of this. On the street 
such details may quickly overwhelm them. In short, offenders need to be 
taught how to make good choices, handle responsibility, and be 
accountable--to make the right choice even when no one is looking.
    Corrections staff can't make this kind of commitment to help each 
individual prisoner. But volunteer mentors can, and, in fact are, 
making this commitment in programs throughout the country.
    Most of us can remember a teacher, coach, or neighbor who believed 
in us and helped us believe in ourselves. That is exactly what 
returning offenders need, yet most have never had someone like that in 
their lives. Mentors can fill that void. A loving mentor lets returning 
inmates know that the community is invested in their success. And the 
Second Chance Act will provide concrete assistance to community and 
faith-based groups to recruit and train mentors for this essential 
work.
    As you work to improve our criminal justice programs, I suggest you 
keep several concepts in mind:
    The purpose of our criminal justice system is to create safer 
communities and reduce the number of victims. There is a tendency to 
focus on institutional safety, rather than community safety. Under this 
narrow, institutional focus, the surest way to avoid escapes and riots 
would be to keep prisoners in their cells 24 hours a day, seven days a 
week. However, the public would be in far greater danger after those 
prisoners were released. Instead of focusing on institutional 
convenience, correctional policy must be judged by whether it makes the 
public safer.
    Reentry planning should start at intake. Planning for the release 
of inmates should start as soon as they are sentenced. Assignment to a 
prison should include factors such as the proximity of the prison to 
the inmate's family and the availability of needed programs.
    Prison policies should strengthen families. Crime not only has a 
devastating impact on the direct victims, but also on the families of 
offenders. Incarceration puts tremendous stress on the spouses and 
children of offenders. These family members have committed no crime. 
The stress on the family is exacerbated by policies such as placing 
inmates far from their families, frequently treating visiting families 
with disrespect, and charging exorbitant fees for telephone calls.
    In addition, there are often preexisting issues of drug abuse, 
physical abuse, and marital conflict. If these issues are not resolved 
during incarceration, reentry will be much more difficult. Programs 
such as La Bodega de la Familia in New York, work with the entire 
family to strengthen their relationships. A healthy, functioning family 
is one of the most important predictors for successful reentry. Our 
prison policies must be changed to strengthen families rather than 
destabilize them.
    Prisons are for people we're afraid of, but many of those filling 
our prisons are there because we are merely mad at them. The response 
to a technical violation should not automatically result in return to 
prison. Obviously, it is important for offenders to learn to live by 
the rules. However, if an offender is making good progress it makes 
little sense to throw that all away because he didn't file his 
paperwork on time or missed a meeting with his probation officer. One 
judge told me, ``Right now, I can either send him back to prison or let 
him go to the beach. Give me something in between.''
    Inmates should be encouraged to participate in faith based 
programs. To deal effectively with crime, we must first understand it. 
At its root, crime is a moral problem. Offenders make bad moral choices 
that result in harm to their victims. To break the cycle of crime, we 
must address this immoral behavior. There aren't enough police officers 
to stop everyone tempted to do something bad from doing it; inmates 
must rely on inner restraint to keep from harming others.
    Job training and education alone won't transform an inmate from a 
criminal into a law-abiding citizen. For some inmates such programs 
merely make them smarter, more sophisticated criminals. It is a changed 
heart that can transform a prisoner. Unfortunately, many prison 
programs ignore the moral aspect of crime and avoid all discussion of 
faith and morality. In doing so, they are missing a significant factor 
that has proven very effective at changing criminals' behavior: faith. 
If inmates are to live healthy, productive, law-abiding lives when they 
return to their communities, we must equip them with moral standards to 
live up to and a worldview that explains why they should do so.
    The community should ``own'' reentry. There is a tendency to view 
reentry as a program of corrections departments. While our prison 
systems are certainly central to the reentry process, it is the 
community that has the most at stake. Many corrections policies make it 
difficult for community and church groups to be involved in preparing 
inmates for release. Many systems ``keep their options open'' on 
release dates, often right up to the day of release, making it 
impossible to recruit, match and train mentors, locate appropriate 
housing, arrange for jobs or welcome the inmates at the bus. For 
reentry programs to be a success, community groups and churches should 
be viewed as important partners with the state, not as mere 
auxiliaries.
    An important example of a corrections policy that makes reentry 
much more difficult is the so-called ``non-fraternization'' rule. I am 
sure you will be shocked to learn that the Federal Bureau of Prisons 
and many states DOC's prohibit religious volunteers from being in 
contact with inmates after they are released. This policy cuts the 
inmates off from the very people most likely to be able to help them 
make a successful transition. Corrections policies must be rewritten to 
encourage mentoring relationships to begin inside prison and continue 
after release. These healthy relationships should be encouraged, not 
prohibited. I am told the BOP is considering changes to this policy, 
but I would urge each of you to press them to eliminate this barrier to 
effective mentoring without further delay.
    Programs are important, but healthy relationships are even more 
important. The support and accountability provided by mentors often 
make the difference between a successful return to society and re-
offending. As offenders make the difficult transition back into the 
community, they need relationships with caring, moral adults. The 
greater the density of good people we pack around them, the greater the 
chance that they will be successfully replanted back into the 
community.
    I have written a book, When Prisoners Return, which covers all 
these issues and is being used by departments of corrections, churches 
and community organizations to coordinate their efforts to help 
offenders during the difficult transition from prison to the community. 
If you and your staff would like copies, I will gladly provide them to 
you.
    As a state legislator I made the mistake of thinking that locking 
people up ended our worries about them. Only when I was in prison did I 
realize that most inmates will be released someday, and that doing 
nothing to prepare them for their release is very dangerous for our 
communities. By passing the Second Chance Act you will avoid making the 
same mistake I made in the legislature. I commend the committee members 
and your excellent staff for developing this important bill.

    Mr. Feeney. Thank you, Mr. Nolan, for your personal story, 
which is quite compelling.
    Mr. Wallenstein, you've got 5 minutes to address us.

TESTIMONY OF ARTHUR M. WALLENSTEIN, DIRECTOR, MONTGOMERY COUNTY 
           DEPARTMENT OF CORRECTION & REHABILITATION

    Mr. Wallenstein. Very good. Pat is sitting next to me, and 
I want to commend him. I didn't know him a year and a half ago. 
I've come to know him very well. He visited our correctional 
system in Montgomery County and brought his board with him. I 
think a great deal of credit for his moxy and discussing his 
personal situation and continuing as a driving advocate for 
improvement in this field.
    I want to thank the Chair and the Ranking Member. I would 
also like to thank Mr. Vassar for the courteous way that he 
engaged me to participate. I want to thank very specifically 
Congressman Chris Van Hollen for his support in me being here 
today. This is not the kind of thing where--I've thought about 
it; I would have fought my way to get this chamber today.
    You're hitting on issues that touch a major nerve of public 
policy in this country, and while you deal with important 
public policy issues every day, it is doubtful that since 1973, 
any public policy issue has so touched every last community in 
the United States than has criminal justice and incarceration. 
So I think you are right smack in the middle of a major issue, 
and I commend you very, very much for engaging it.
    Don Murray is also here today from NACO, and Don has been 
their senior criminal justice legislative mentor, really, for 
years and started working with me 28 years ago, when I became a 
warden for the first time in Bucks County, and I owe Don a 
great deal for keeping me focused and teaching me a great deal 
about the county aspect of this entire problem.
    This is great legislation. This is not just average 
legislation. And I noted this morning that Members from 
California and Massachusetts noted this was an issue, a time 
we're able to engage something that has gone untouched for far 
too long, and it's reasonable, and it's bipartisan, and it 
doesn't focus on liberal versus conservative or harsh versus 
soft. They're going home, all right? Whatever got them there, 
they're going home, and it's measurable, so we should have some 
idea of whether we're showing some success in diminishing the 
potential for people to come back to incarceration. That alone 
makes this a problem certainly worthy of our attention.
    A national voice is needed. This morning, it was very 
appropriately suggested maybe the States should deal with this. 
Maybe the local jurisdictions should deal with this. But every 
single community in America has seen vastly expanded 
incarceration, which means in terms of this legislation, a vast 
increase in the number of people going home to every district, 
every Congressional district, every State district, every 
neighborhood in this county, in this country, so it's certainly 
worthy of a national voice.
    It's also appropriate that a national exposure be given to 
the issue, because it's going to require significant 
engagement, collaborative engagements of a vast array of 
organizations, and I think the Federal Government bears not 
only a special responsibility but a special ability to bring 
people together who are not used to talking, may have to be 
herded into the same room to begin this discussion to diminish 
the potential for return to correctional institutions.
    I want to devote some time, as I have in my testimony that 
I ask be made part of the record, on counties. And I will try 
to be very short and very direct on this. Almost all of the 
discussion has centered on States. We all commend the President 
for mentioning 600,000 prisoners returning home in the State of 
the Union speech in 2004, that really got this ball rolling.
    But the fact is it's not 600,000. It's 10,600,000. Counties 
must be added to the equation, and I'm not here as an apologist 
for the counties or simply to put the county agenda before the 
Committee; it's real: 3,320 jails in this country return 
between 7 and 10 million prisoners a year to local 
jurisdictions. This is serious business. And the counties need 
to be brought to the table.
    This legislation, thanks to the efforts of people like 
Richard Hurtling from the Justice Department and others who 
have seen the county relevance, all right, have brought us to 
the table. So I would ask the Committee in its discussions to 
continue to represent the counties, and again, not 650,000; 
10,650,000.
    And it isn't all violent crime impacting public safety. 
Many of us have read, for example, the broken windows approach 
in New York, where minor crime, quote, minor, misdemeanor 
crime, drives public safety enormously in this country. Almost 
all domestic violence offenses are misdemeanors. They're 
handled at the county level. So people who smack their wives 
around and are going home often directly back into that same 
home are county based, and counties need to be considered and 
need to be urged, directed, cajoled, pushed, to address this 
whole issue of offender reentry, because the potential impact 
is enormous.
    I actually believe that this legislation could have the 
same impact of the Juvenile Justice Act of 1975, that radically 
changed how we look at youth ending up in adult correctional 
institutions. While the dollar figure is modest, the public 
policy, the philosophical implications behind it are enormous, 
all right? That you're there, we can argue about how you got 
there and the whys and the lengths of sentences, but you're 
going home, and there, I think we have a chance to do something 
of enormous significance.
    Mr. Feeney. Mr. Wallenstein, we can tell your passions and 
capabilities and experience would allow you to go on for quite 
some time. Would you wrap up, because we want to get into 
questions.
    Mr. Wallenstein. Correct.
    I would like to invite the Committee and its Members to 
come to Montgomery County at any time of your choice, see what 
we do on the floor, so you can see these issues in operation, 
and I urge you again: stay with us on this issue and don't let 
it slip. You've discovered something significant.
    [The prepared statement of Mr. Wallenstein follows:]

                Prepared Statement of Arthur Wallenstein

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Feeney. Thank you very much for your testimony.
    And Ms. Shapiro, again, thank you for coming today.
    Ms. Shapiro. Thank you.
    Mr. Feeney. And you're recognized for 5 minutes.

   TESTIMONY OF CAROL SHAPIRO, PRESIDENT AND FOUNDER, FAMILY 
                            JUSTICE

    Ms. Shapiro. Thank you very much, Chairman, Members of the 
Subcommittee, it really is a privilege. Like my colleagues 
here, I'm equally passionate and enthusiastic about this bill. 
My testimony, I hope, will reflect shifting the lens to think 
about the impact on families. It goes to the county issue, the 
State issue, and the Federal.
    I'd like to take you to Rikers Island, where I was about 10 
years ago, little longer, and introduce you to Mrs. Rodriguez. 
She came because there was a graduation at the boot camp. Her 
son Jose, was graduating, and she talked to me. She said, you 
know, when Jose comes home, he steals from me. I take care of 
his children. He's been in and out of drug treatment. But I 
love Jose, and I'm proud of Jose.
    And this light bulb flickered to think okay, what about the 
families? What kinds of supports can we do? What can we be 
doing to improve the outcomes for drug treatment or people 
struggling with mental illness? And I think the importance of 
this bill, which as others have stated, has, you know, broad 
bipartisan support does a few things that get to some of the 
complexities--you just have to think about your own families--
of some of the issues that people coming home from jail and 
prison are facing.
    One, I think this bill really will enhance State and local 
reentry programs by rewarding partnerships, by really focusing 
on accountable types of partnerships, not just for the person 
coming home, but looking at issues of child support, housing, 
the confluence of those issues. Secondly, I think it inspires 
some cost-effective strategies to address recidivism, you know, 
the Jose that was going in and out of jail and prison and 
reentry challenges for family members by looking at measuring 
very concretely outcome measures tied to, you know, whatever 
the intervention is doing.
    And thirdly, I really think a way that this bill enhances 
public safety is by looking at the context in which people are 
coming home from jail or prison. You can see that Ms. 
Rodriguez, and there are many Ms. Rodriguezes in the country, 
want to do well by their children. I think this bill is a 
really important step for hope to their families, but it also 
recognizes that the sheer numbers, the 2 million children 
affected, there's also caregivers. Many caregivers step up to 
the plate when someone is arrested, whether it's short time for 
a jail sentence or longer time from prison.
    Here's why I think it's important we consider families: one 
is they are a natural resource that can be tapped into, and 
they're existing. They're there. They don't cost a lot of 
money. Think about your own families. Families are also--the 
families that we're talking about are also connected to 
multiple governmental systems such as TANF, such as housing, 
such as welfare, such as, you know, a variety of things.
    But they're also connected to informal social networks, be 
it faith community, be it clinics, be it AA. Secondly, families 
want their sons and daughters, their loved ones, to succeed. 
They don't want them going in and out of jail and prison. 
Families are also there 24 hours, and families are there when 
Government leaves.
    The Urban Institute study suggests that most people do go 
home to their families, and most were living with their 
families after getting out and getting financial support. At 
our direct storefront in New York, La Bodega de la Familia, we 
tested the notion of improving drug treatment just by 
supporting families. For some, outpatient drug treatment is 
wonderful; for others, longer term residential treatment is 
really needed. How we match the treatment, how we think about 
the family, the kids, the seniors that are affected makes a 
difference whether somebody stays in treatment or leaves 
treatment.
    We found that we were able to reduce drug use from 80 to 42 
percent just after 6 months of coming home from prison, but 
equally significant is family well-being improved. Housing was 
stabilized. Employment was stabilized. Kids were staying in 
school. Those are family measures which I think this bill is 
really supporting.
    I think there are examples, creative examples around the 
country where partnerships between public housing and 
supportive housing are actually working with the local fabric 
of communities. I think there are a number of States where 
there is leadership saying we have to use science, we have to 
measure, and we have to look at outcomes that are not just 
related to someone coming home from prison such as recidivism 
but looking at all the family indicators.
    We have developed and tested some of these initiatives with 
a number of Federal and State and local partners, and in 
closing, I just want to say that this Second Chance Act is for 
the many Mrs. Rodriguezes in this country, but it's also for 
the many Joses, and the idea of doing both together, I think, 
is really exemplary.
    Thank you for the opportunity.
    [The prepared statement of Ms. Shapiro follows:]

                  Prepared Statement of Carol Shapiro

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Feeney. Thank you very much, Ms. Shapiro.
    And now, we are going to commence a series of questions of 
the panelists. I am going to start and take 5 minutes. Mr. 
Hagy, first to you in terms of what the Justice Department has 
done so far under SVORI, obviously, as each individual needs a 
slightly different tailored approach, because some have 
families, some have support groups, some have peer pressure 
that's going to be very challenging to overcome if they go back 
to their communities. Just like each individual needs a 
tailored approach, there are some 30 different experiments that 
you have underway.
    You've talked about some of the common, the three common 
things with respect to each of these approaches, but what you 
have you found about the differences, and what, if anything, 
are your statistics on recidivism showing at this point?
    Mr. Hagy. The way the program is set up is obviously, we 
give a lot of flexibility to each State to set up their program 
based on the needs that they know probably better than we do on 
the individual basis. What we're finding is that they're each 
trying something different or focusing on something a little 
bit different.
    We're seeing, like, for instance, we talked about the 
importance of family and how important that was; if you look in 
Mississippi, they're having the families come into the pre-
release and talk to the prisoners and discuss things with them 
and have them to start moving back out into the post-release 
stage and working with them there. Maine uses 
videoteleconferencing if the families are at a distance, to 
work with those families so that when they are released, they 
can connect better with those families.
    A lot of programs are using faith based post-release 
counseling and mentoring, one-on-one mentoring. I think about 
54 percent of the programs are using some kind of that. So each 
State is doing something just a little bit different and 
focusing a little bit different area on how they are 
approaching the problem.
    Mr. Feeney. And are you evaluating the relative successes?
    Mr. Hagy. Yes, and the national portrait just came out, and 
I think the way they're evaluating it through the Research 
Triangle Institute is a great way of doing it. The way they 
started was the national portrait of the SVORI program, which 
really was descriptive, going out saying all right, who's set 
up? How are they setting up? And then, it has a profile of the 
States and what they're doing, some of those being described as 
I do now.
    They are in the early stages; obviously, it's going to be 
over a period of time where we evaluate this program. I was 
reading something last night: the first 12 months, obviously, a 
lot of the recidivism occurs in that, so what you are going to 
see now is a lot of that, but as we go on in the second and the 
third and the fourth year, some say up to 7 years to evaluate 
these programs, but we're looking at a 4-year time frame, we 
will be better able to say what is working and what is not.
    The great thing about it is on this Website, I think, that 
I mentioned, they are releasing reports and studies about the 
effectiveness of parts of that program as we go along which are 
publicly available. So, you don't have to wait for the 4 years. 
The best results will come 4 years down the road when we have 
time to look at people, but right now, we looked at one study 
on faith-based programs; again, the national portrait described 
them. The faith-based study talks about what faith-based 
institutions are doing. There's a juvenile report that was just 
released. So we're releasing that information as we go along to 
inform you and our constituents on how that's working as we go 
along.
    Mr. Feeney. Has the Justice Department taken a position on 
Mr. Nolan's suggestion that there's no sense to a policy that 
will not allow a mentor to have contact with a prisoner once 
released?
    Mr. Hagy. He said he was working with the Bureau of 
Prisons. I will have to check with them on that and where they 
are in their decision making process. I don't know if any final 
decision has been----
    Mr. Feeney. Well, maybe I'll ask Mr. Nolan, then, again, 
thank you for your testimony. And you talked about the 
importance of mentoring, and is there any reason given at all 
for why contact with the mentor after release is a problem?
    Mr. Nolan. First, I forgot to ask that--I have a full 
written statement, if that could be incorporated into the 
record.
    Mr. Feeney. All of the written statements will be entered 
into the record.
    Mr. Nolan. The reason I'm given, and this is true in many 
States; it's not just the Federal Bureau of Prisons, is that 
somehow the inmates might pull the wool over the eyes or take 
advantage of that mentor outside, and that's always the risk. 
And that's why training is important.
    On the other hand, what it does is sacrifice the ability of 
a healthy, good relationship that started in prison from 
continuing. It cuts them off from the person other than the 
family, and Carol has done such a good job describing the 
importance of healing families and----
    Mr. Feeney. Well, Mr. Nolan, do a lot of these mentors have 
some training before they go into prisons?
    Mr. Nolan. Absolutely. We recruit them. We match them 
specifically with that prisoner, and we train them. And I don't 
know of any instance--there probably have been some--of an 
inmate taking advantage. You've got to understand, too, it's 
more work for the prison to keep track of it, but public safety 
should trump institutional convenience.
    And it's really important that we remember that prisons 
don't exist for their own sake. They exist to keep us safer. 
And if their policies inhibit keeping us safer, we ought to 
change the policies. The Bureau of Prisons says they're 
reviewing it, but they're slow. With the money in this bill 
going out to mentoring programs, those relationships should 
start in prison.
    I brought up one of our mentees and his mentor to meet with 
several of the Members, and Mark Souder asked him well, what 
would happen if you hadn't had this relationship while you were 
in prison? And David said I would have seen this funny little 
man in a bow tie with a fedora hat, and what angle does he 
have? Why is he interested in me? And blown right past him, 
because he stood between me and freedom.
    He said it was only because Jim came faithfully every week 
for over a year to see him, to work with him, to work on a life 
plan, to tell him what it mean to be a good employee, how to 
heal relationships with his family, to work on all those 
issues. David said it was probably three or 4 months before he 
began to take Jim seriously, because he always kept thinking, 
well, what's his angle? What's he trying to get up on me?
    David had been so abused by so many people in his life that 
he wasn't able to trust anybody. And it was only that love of 
week after week, just showing up, just being there, caring 
about him that broke down that barrier and had David say this 
person really does care about me so that he could stay with him 
when he got out.
    Now, to show the other side of the relationship, Jim, a 
wonderful guy, retired Quaker Oats executive, said I told David 
if he goes back, they better have two beds, because I'm in for 
attempted murder. [Laughter.]
    But there's wisdom in that, because he's holding David 
accountable. He's not only there to help him, but he's saying 
David, you've got to keep your nose clean.
    Mr. Feeney. Well, thank you.
    My time has expired. The gentleman from Virginia is 
recognized.
    Mr. Scott. Thank you. Mr. Nolan, just following up on that 
in terms of the contact after prison, that's for all 
volunteers, not just----
    Mr. Nolan. Right, it's not just religious. It's all 
volunteers are prohibited from that. Now, 95 percent of 
volunteers in prison are religious, but yes, it applies across 
the board to all volunteers.
    Mr. Scott. And these are volunteers.
    Mr. Nolan. Correct.
    Mr. Scott. So we don't get into who's paying what money to 
who.
    Mr. Nolan. Right, right.
    Mr. Scott. Okay; Mr. Hagy, SVORI, do you have a study on 
which programs work and which do not work?
    Mr. Hagy. Well, and that's what I'm talking about, that 
longitudinal study. We have some descriptive stuff now, the 
first national portrait that came out. We really haven't had 
time to complete a study. Most of these programs that were 
basically funded in 2002 and 2003, didn't really ramp up 
immediately. In fact, I think the last study, about 75 percent 
of the programs, this just came out, are actually fully 
functioning with the rest on some kind of variation of that. So 
we don't have it; we have some good anecdotal evidence of, 
again, some of the family reentry using the faith-based and 
what they're actually doing, but the effectiveness will come 
along as we move along.
    Mr. Scott. Well, based on the information and studies that 
you have, is it fair to say that education helps reduce 
recidivism?
    Mr. Hagy. Yes, a lot of the different programs are using 
education within the pre-release programs to prepare them to 
leave. Again, I think that's an important part of it and using 
the mentoring after they leave.
    Mr. Scott. Now, along those lines, would it be helpful to 
fund college education for prisoners, or would it be more 
helpful to deny them college education?
    Mr. Hagy. I can't speak to that issue. I have no evidence 
one way or the other on that one at this point from the 
Department on this issue.
    Mr. Scott. You don't know whether helping people get a 
college education would be helpful or not?
    Mr. Hagy. I mean, that is a priority for Congress, but 
obviously, how they fund that, but obviously, a college 
education does help you get a job after--in any case helps you 
be more employable. But, how that's funded and what a priority 
that is for Congress, I can't speak to.
    Mr. Scott. Well, I'm not talking about priorities. I'm just 
saying if your goal is to reduce crime, helping prisoners get a 
college education would be helpful if your goal is to reduce 
crime.
    Mr. Hagy. I can agree that education does improve your 
opportunities.
    Mr. Scott. Okay; what about employment opportunities in 
prison? Would that be helpful to reducing recidivism?
    Mr. Hagy. I do know they start talking about that in the 
pre-release stage, and obviously, on the post-release stage----
    Mr. Scott. I'm talking about jobs in prison, like the 
Prison Industries program. Has that been studied?
    Mr. Hagy. I think there are some Federal programs, the 
UNICOR program that seems to have done a pretty good job at 
doing some job training.
    Mr. Scott. And UNICOR participants have a lower incidence 
of recidivism.
    Mr. Hagy. That is being shown.
    Mr. Scott. Okay; Ms. Shapiro, you're working with families; 
many of the prisoners have children within their families.
    Ms. Shapiro. That is correct.
    Mr. Scott. Have you found that to be a high risk group for 
future criminal activity?
    Ms. Shapiro. Well, the research suggests there is a very 
high correlation, so the answer is yes. And it's why I think 
it's important, and I think this bill recognizes how you do 
successful transition home that includes interventions for 
children and helping kids stay in school and helping their 
father or mother get the drug treatment they need so that it 
stabilizes the family. I think it is very intertwined. And many 
families have more than one person involved in the criminal 
justice system, not only children at high risk.
    Mr. Scott. And has intervention with the children been able 
to reduce the likelihood that they may get in trouble?
    Ms. Shapiro. I can't speak to the full research on this. I 
think it has been very promising. There are studies, for 
example, from some of the drug courts where for women, I know, 
who have had children, the kids have remained drug free and 
healthier for a long period of time. And it's relatively new in 
this field to actually look at somebody, and to see the family 
as the unit of analysis and measure outcomes for others in that 
household.
    Mr. Scott. Thank you.
    And Mr. Wallenstein, you indicated that it's not 600,000 
but 10 million. One of the problems with funding programs for 
those in jail is that they're there often for a short period of 
time. So by the time they're processed in and processed out, 
you don't really have a lot of time. Are you suggesting that 
there is an opportunity here to reduce recidivism for those 
even though you may have them for a short period of time?
    Mr. Wallenstein. There is a dramatic opportunity to 
diminish recidivism. First of all, jail sentences can be for up 
to 18 months and in a few States even longer. But take the 
smaller group of 12 months. You can engage people in very short 
periods of time. In fact, our whole treatment, substance abuse 
treatment system in this country is based on increasingly short 
periods of time.
    Remember, what works, we have to challenge traditional ways 
of looking at programs, so if you're going to prepare someone 
to go out to work, there are work force development factors 
that the one-stops have done dramatic work with all across this 
country: role-playing with people, rehearsing them, practicing 
with them, real world applications; you don't need years. In 
fact, I would argue years can be counterproductive. Months can 
be very valuable, because what you teach and what we teach in 
Montgomery County on Monday, Tuesday, Wednesday, Thursday, and 
Friday, you may practice out on the streets the following 
Monday, Tuesday, Wednesday, Thursday, and Friday, because we 
won't let you sit. Get out there and get a job. The counties 
have got to be involved in this because of the size and scope 
of this population.
    Mr. Scott. And how can we help them get a job after they 
get out?
    Mr. Wallenstein. The one-stop movement in this country to 
me is one of the most valuable undertakings. Department of 
Labor has implemented it through grants to States. One-stops 
exist in almost every county in America. Insisting, I mean, 
dramatically insisting what are you doing to help the local 
criminal justice population should be part of the guidelines to 
every work force board and every one-stop in the United States.
    You can use volunteers, faith community individuals, get 
them thinking about a job and get the work force to intervene 
inside of the jails. We're opening a one-stop center inside the 
Montgomery County Correctional Facility in Clarksburg, 
Maryland. It's a new step forward. We welcome you to come and 
take a look. It's a work in progress. Use every hour of the day 
that we have these people.
    Mr. Feeney. Thank you very much. The gentleman's time has 
expired.
    Without objection, we'd like to give Mr. Van Hollen, who is 
not a Member of the Committee, 5 minutes to engage in 
questions.
    Mr. Van Hollen. Thank you very much, Mr. Chairman.
    Thank you all for your testimony. Mr. Nolan, thank you for 
sharing your experiences and what you've done as a result and 
are doing as a result of those experiences. You point out in 
your testimony the number of people who go into prison with 
substance abuse problems, almost 75 percent according to your 
testimony that very few of them, maybe one-fifth of those 
people get any substance abuse treatment while they're in 
prison.
    I mean, do we have pilot programs? I mean, I know Mr. Hagy 
suggested that we're waiting for these longitudinal studies. 
There must have been, must have been lots of pilot programs out 
there that have been done at the various levels to see what 
works and doesn't work with respect to substance abuse, because 
common sense will tell you someone goes into prison and has 
substance abuse and doesn't get treated and comes out with 
substance abuse problems, you know, you haven't really gotten 
anywhere.
    Mr. Nolan. Right, what have we accomplished?
    Mr. Van Hollen. So what works? What doesn't work? Tell us 
about some models you know of.
    Mr. Nolan. Well, first of all, a great resource on this is 
CASA at Columbia University, Council on Alcohol and Substance 
Abuse; I think that's the title. Joe Califano heads it up, 
former Secretary of Health, Education and Welfare. There are 
plenty of studies that show what works. There are some great 
faith-based programs, one called Celebrate Recovery, which is 
part of, you know, the--an overall transformation of the 
person. They have a great success rate.
    But the key thing is doing nothing is so irresponsible. To 
lock somebody up for 5 years, 10 years, 15 years with an 
addiction problem but do nothing about the underlying addiction 
and then release them back on the street, you know, it's a 
fraud on the public, and it's a fraud on them. We've done 
nothing about the underlying problems, and we've released 
somebody who is very likely to commit another crime, so create 
more victims as well.
    And to show how the bureaucracy plays okey-doke, I appeared 
before the Virginia Reentry Commission, and I talked about 
this. And a representative of one of the Virginia programs 
said, well, I want to reassure the members of the Commission 
that every Virginia prison has drug treatment programs. Well, 
that's technically correct. Every one does. It's just not 
available for most of their prisoners. Only a tiny percentage 
get it. But here she is telling the legislators, oh, every--you 
know, and only if you knew that only a few were getting it 
would you realize she's essentially misleading that committee.
    And we've got to decide if we're spending all this money, 
more than a Harvard education, to lock somebody up, shouldn't 
we do something to change their heart and their habits to leave 
them better than when they came in? I would also say we need to 
look at even sending somebody with a drug abuse problem to 
prison. Prisons are for people we're afraid of. It's 
essentially a quarantine. It's segregating them from us so we 
can live safely.
    We've filled them with a lot of people that we're mad at, 
and then, we do nothing about the reason that we're mad at 
them. And they come out, do it again, and we're still mad at 
them.
    And one last thing: as a legislator, I said, well, at least 
they don't have access to drugs while they're in prison. Wrong. 
There were more drugs available to me in prison than there were 
when I was in college, and most of them didn't come in through 
the visitation room. They came in in the guards' lunchpails in 
return for money and sex and everything else.
    That's the reality of prison life. Chuck and I have said, 
Chuck Colson and I, we went to bed every night with the smell 
of marijuana in the air every night. There were plenty of drugs 
available in prison. So the idea that as a legislator that 
somehow, well, at least they're abstaining from drugs while 
they're in prison is just not true.
    Mr. Van Hollen. Thank you, Mr. Nolan.
    And on that point, I was in the Maryland State Legislature 
and asked the same questions and got the response, which is 
that there are these drugs in prison. I am still confounded by 
the fact that we can't do more about it. I realize the 
difficulties, and I realize the current reality, but I also 
believe that we can do more to change that reality, and drug 
abuse programs should be part of that. But we also, to the 
extent that there is all this corruption going on, which is 
always what you hear about, we should be able to do more about 
that as well.
    Mr. Wallenstein, if you could comment on that.
    Mr. Wallenstein. The vast number of correctional officers 
in this country are totally and completely honest and wouldn't 
condone drugs in their prison for a second, as I know Pat would 
support.
    Mr. Nolan. Yes.
    Mr. Wallenstein. The few that are there and do it should be 
prosecuted and put in the prison. It's a very, very small 
amount.
    The issue is we must engage, but it needs to be done 
intelligently. And I think the Committee can help. Not a dime 
of Federal money should go to any program that doesn't present 
an evaluation and research template, not 2 years after you 
funded them but prior to any monies flowing. And groups like 
NIJ and BJS, who are excellent, should help develop the right 
questions to be asked and the methodologies to be used to 
measure up front, so we go into the programs with an idea of 
how we can gauge our success.
    Mr. Feeney. The gentleman's time has expired.
    We have time for part of another round if you're 
interested. Mr. Hagy, is that what we're doing in terms of 
requiring a template, what Mr. Wallenstein just suggested with 
SVORI?
    Mr. Hagy. Again, it's a little bit broader than that, but 
we do provide the pre-release evaluation. That's one of the 
things that we're looking at is that you have to evaluate the 
person and then carry them through the entire process. So yes, 
there is an evaluation of each prisoner's situation and what 
they need to make them more successful, whether it be drugs or 
other issues.
    Mr. Feeney. Well, I misunderstood. I thought what Mr. 
Wallenstein was saying, and correct me if I'm wrong, Mr. 
Wallenstein, is that there has got to be some demonstration 
that the process has some positive results before the process 
gets any Federal funding. Is that basically what you were 
telling us?
    Mr. Wallenstein. Correct.
    Mr. Hagy. Yes, and then, I think I can speak to your sort 
of issue as well as these longitudinal studies. What we're 
studying with the SVORI program is the compilation of these 
programs and how do they work over time. Obviously, in any 
program, any facility, any State, some of those drug treatment 
programs may be very, very successful; others are not. In fact, 
one of the questions I ask our evaluators was when you do come 
out with a SVORI program, and you tell me 4 years down the road 
it's working, how do you isolate whether it was the individual 
programs for that prison or that facility or it was actually 
the combination of the efforts?
    So the longitudinal studies actually speaks to the 
combination of efforts and are we doing a good job at making 
them coordinate all those efforts and focus on the many 
different problems that may confront a prisoner. And again, in 
each one of those, there are successes. We have the RSAT 
program that has proven to be very successful, residential 
substance abuse program, and our drug courts. So we have seen 
programs individually that work. It's the analysis of the SVORI 
as a combination we're going to try to look at.
    Mr. Feeney. Okay; and because I've got to be done by 1:30, 
the gentlelady from Texas is recognized.
    Ms. Jackson Lee. I'll ask unanimous consent to put my 
statement in the record.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security
    Mr. Chairman and Ranking Member, today's legislative hearing was of 
extreme importance, and this oversight hearing is just as important. 
The Second Chance Act, H.R. 1704, responds to the fact that, for 
example, in 2003, over 2,000,000 people were incarcerated in Federal or 
State prisons or in local jails. During 2003, more than 650,000 people 
were released from State and Federal prisons to communities nationwide. 
This nation is in desperate need of high quality and well-thought-out 
programs for the reentry of criminal offenders.
    One of my great concerns over the years has been the need for 
legislation to facilitate the early release of nonviolent offenders, 
and today's hearings go hand in hand with that principle. My 
legislation, the ``Federal Good Time Release for Non-Violent Offenders 
Act,'' or the ``Federal Prison Bureau Nonviolent Offender Relief Act of 
2005,'' H.R. 256, provides for the release of federal prisoners who 
have served one-half or more of their term of imprisonment if that 
individual has attained the age of forty-five (45) years and has never 
been convicted of a crime of violence.
    Passage of this legislation will confer both economic and social 
benefits--just as would the Second Chance Act. Some of those who are 
incarcerated face excessive sentences, and my provisions would mitigate 
this problem. Non-violent offenders can provide important community 
service to the public, reduce taxpayer burdens, and restore a sense of 
self-worth, accomplishment, and duty to these persons.
    The number of federal inmates has grown from just over 24,000 in 
1980 to 173,739 in 2004. The cost to incarcerate these individuals has 
risen from $330 million to $4.6 billion since 2004. At a time when 
tight budgets have forced many states to consider the early release of 
hundreds of inmates to conserve tax revenue and when our nation's 
Social Security system is in danger of being totally privatized, early 
release is a common-sense option to raise capital.
    The rate of incarceration and the length of sentence for first-
time, non-violent offenders have become excessive. Over the past two 
decades, no area of state government expenditures has increased as 
rapidly as prisons and jails. Justice Department data released on March 
15, 1999 show that the number of prisoners in America has more than 
tripled over the last two decades from 500,000 to 1.8 million, with 
states like California and Texas experiencing eightfold prison 
population increases during that time. America's overall prison 
population now exceeds the combined populations of Alaska, North 
Dakota, and Wyoming.
    Over one million people have been warehoused for nonviolent, often 
petty crimes. In addition, the European Union, a political entity of 
370 million, has a prison population, including violent and nonviolent 
offenders, of roughly 300,000. This is one third the number of 
prisoners which America, a country of 274 million, has incarcerated for 
only nonviolent offenses.
    The 1,185,458 nonviolent offenders we currently lock up represents 
five times the number of people held in India's entire prison system, 
even though it is a country with roughly four times our population.
    As the number of individuals incarcerated for nonviolent offenses 
has steadily risen, African-Americans and Latinos have comprised a 
growing percentage of the overall number incarcerated.
    In the 1930s, 75% of the people entering state and federal prison 
were white (roughly reflecting the demographics of the nation). Today, 
minority communities represent 70% of all new admissions--and more than 
half of all Americans behind bars.
    The Nonviolent Offender Relief Act of 2005 would address these 
disparities and the detrimental impacts that are caused by keeping 
nonviolent offenders behind bars. I will work with the Gentleman from 
Ohio, Mr. Portman, and my colleagues Mr. Davis of Illinois, Ms. Tubbs-
Jones of Ohio, as well as the Gentlemen from Indiana, Ohio, and Utah--
Messrs. Souder, Steve, and Cannon respectively to explore the 
possibility of incorporating my provisions with those of the Second 
Chance Act--of course after making appropriate changes to make H.R. 256 
apply to the states.
    In addition, I would like to recognize the hard work that the 
Gentleman from Michigan, our distinguished Ranking Member John Conyers, 
has done in introducing his ``Rebuild Lives and Families Re-Entry 
Enhancement Act of 2005''--legislation of which I am an original co-
sponsor. His proposal seeks to re-authorize adult and juvenile offender 
State and local reentry demonstration projects that are already public 
law. This proposal really makes sense and requires much less by way of 
legislative draftsmanship to implement. Furthermore, that bill contains 
very substantive provisions that will remove some of the barriers to 
re-entry. I will work with that Gentleman to combine our legislative 
efforts as well.
    I hope that as we move the Second Chance Act--with the enhancements 
to be offered by the Ranking Member and me, forward toward the House 
floor so that this critical issue can be expeditiously addressed. Thank 
you, Mr. Chairman and Mr. Ranking Member, and I yield back.

    Ms. Jackson Lee. Thank you, gentlemen. It's good to see 
you, Mr. Hagy.
    Simply, I want to acknowledge that this is a very 
instructive bill and one that's overdue. I think there is 
sentiment on both sides of the aisle as well as in the House 
and the Senate. A number of Senators have spoken about the 
issue dealing with Second Chance, and I visited a number of 
Federal prisons, including the Federal prison in Beaumont, low, 
medium, and maximum security as well as the prisons in 
California, some of the most stark conditions; some of them are 
Federal prisons.
    But my question would be if you could, just for my 
edification, emphasize the value that you would see or could 
see in tying this legislation to what we call good time 
release. What does that mean? We have over the years done an 
excellent job with the numbers of crime coming down, and I 
think we can attribute that to the past Administration 
continuing with Attorneys General that have been consistent on 
the issue of crime and communities have appreciated.
    Although this bill ties itself to State programs and faith 
based groups working locally, let me ask you this: about the 
numbers of individuals languishing in prison, nonviolent, have 
had a record of 10, 15, 20 years of good time, meaning well 
behaved, having the opportunity tied to this bill, meaning that 
they would be released to a program, and that means that they 
would be released before the time that was set, because under 
these sentencings that are enormous, be released to programs 
like this, so it's called good time; the concept is good time, 
early release. You are a prisoner, and there's also the factor 
of maybe age. Maybe they would be 40, 45 years old, people who 
have been in 20 years.
    I would like--hopefully, these are gentlemen who believe 
this bill has some merit and ladies. How would you view that 
issue?
    Mr. Hagy. I'll go first and then maybe let our issues--how 
that works. Obviously, there is some idea that these people 
have good behavior. I don't see anything in our legislation 
that prevents someone from taking advantage of our programs; 
again, I can't speak to the Department's policy. Obviously, 
that is an idea that's come up, and I can take that back to our 
leg team and see how they feel about it.
    Ms. Jackson Lee. I would appreciate it.
    Mr. Hagy. I will certainly do that for you.
    Ms. Jackson Lee. Ms. Shapiro?
    Ms. Shapiro. Well, obviously, anything that will get people 
out of prison into a structured support system is preferable 
than, you know, maintaining their lives in prison, again, 
because it affects their whole network and whole neighborhoods.
    I think the challenge is always for the seamlessness, and 
as much as there may be great drug treatment, for example, or 
programming in prisons, what's the connective tissue when 
they're coming home? And how do we really think about 
programming that is conscious of that at the time? And I think 
the supports we give at the community level is also recognizing 
that purpose. The research suggests the more people are watched 
when they're coming back from jail or prison, the more they go 
back to jail and prison for technical violations.
    So I think the truth in what we want to accomplish can 
happen with this bill, particularly if we are building an 
accountability for the individual but also measurement for some 
of the other indicators that I think are so critical for 
healthy families and healthy neighborhoods.
    Ms. Jackson Lee. And so, with this kind of infrastructure 
in place, if we can move this along in a bipartisan manner, the 
terminology I'm using, because maybe the microphone, early 
release. So what I am suggesting is that you would have early 
release of individuals who have documented evident good time, 
meaning they have been models, good behavior, whatever 
positions, you know, whatever they are because of their 
behavior, because of also their age----
    Ms. Shapiro. Right.
    Ms. Jackson Lee.--that they could be released; they still 
have some work life in them, and they could be released to 
these--and so, you would get early release before the 
traditional time, because if you take statistical analysis, you 
have beds loaded up in both State and Federal prisons with 
individuals who really are nonviolent--again, I say that; their 
crime was nonviolent, and who are able to come out into this 
system.
    Is that something that you could see being a good, as you 
said, seam that would lead itself into a positive return?
    Ms. Shapiro. Well, I can't speak to the particular State or 
local systems and how that might work institutionally. I don't 
know if my colleagues can do----
    Ms. Jackson Lee. But you can speak, is that something that 
would be a good fit into a structure?
    Ms. Shapiro. Absolutely, particularly as you think about 
case management and how it flows from an institutional setting 
to a community setting, yes.
    Ms. Jackson Lee. Mr. Nolan.
    Mr. Nolan. Yes, we definitely need something like that. As 
a legislator, I supported abolition of parole. I wasn't 
thinking, because----
    Mr. Scott. You supported or opposed?
    Mr. Nolan. I supported it, and it was a mistake. And the 
reason that it was a mistake was that it took away all 
incentive to be involved in any programming that bettered 
themselves. And I have a perfect example: within the Federal 
Bureau of Prisons right now, if you serve out your time, you 
have no tail. You finish your time; you walk out the gate----
    Ms. Jackson Lee. And no support.
    Mr. Nolan.--with no restrictions and no support, exactly.
    On the other hand, and I know guys that turn down halfway 
houses because it's stricter, it's more accountable. They have 
more choices, more options, but they're also held accountable 
for it. They didn't want that. They just beat the clock. They'd 
serve their time watching TV, lying in the rack, and then walk 
out the gate a free man; literally, in their terminology, 
cutting their tail.
    It is more important to introduce to men and women inside 
choices, options, give them an incentive for preparing 
themselves, coming up with a plan, work with them on the 
support systems that Carol talked about. And right now, that 
isn't done in most cases.
    Ms. Jackson Lee. And if I may, and thank you, that means 
whatever we call it, but if we did the early release, which is 
not necessarily parole; it means that you look at a category of 
personalities, you look that they've been good time for this 
period, and you say you know what? You're out, but you put that 
seam, and therefore----
    Mr. Nolan. There's got to be that follow-through.
    Ms. Jackson Lee. Income producers but out and take those 
beds away from all that we're paying for people who are just 
sitting there.
    Mr. Feeney. The gentlelady's time has expired. Mr. Nolan, 
you can answer that, and then, we're going to have five more 
minutes----
    Ms. Jackson Lee. I thank the gentleman.
    Mr. Nolan. Parole did it the wrong way. They just said, 
okay, who's the next few to get out; we'll let them loose. No 
preparation.
    Ms. Jackson Lee. Right.
    Mr. Nolan. Opened the gate, pushed them out. That's the 
wrong early release. Instead, you do it intelligently. You 
prepare them and say you, we've given you responsibility; 
you've shown you can handle it. You have a life plan. You're 
going out, and here's the support system to help you make it. 
That's the right way to do early release.
    Ms. Jackson Lee. Thank you to the Ranking Member and the 
Chairman. Thank you very much.
    Mr. Feeney. Thank you.
    And I'm going to recognize the Ranking Member for 5 
minutes. He can either use it; he can yield it; or he can lose 
it. That will be his discretion. He can have the last 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Nolan, are you aware of any studies that would suggest 
that simply lengthening the time that someone is incarcerated 
without anything else, no education, no job training, you just 
lengthen the time, that that would reduce recidivism?
    Mr. Nolan. No; on the contrary, I think experience has 
shown the opposite. Mr. Wallenstein alluded to this. Sometimes, 
doing more time actually makes--institutionalizes someone, 
makes them less able to make choices. Let me just give you an 
example personally. For 2 years, I was locked up. That's not a 
long time compared to a lot of folks in prison.
    I got out and went to the halfway house. A bunch of my 
buddies took me to the Eighth Street Deli near the Capitol in 
Sacramento. We sat there, and they all ordered. The waiter was 
there. And I looked at the menu, and I looked at it, and I knew 
what I was supposed to do, but I was paralyzed. I couldn't 
choose what to eat. For 2 years, I hadn't chosen what I ate. 
And here I was unable to do that.
    Finally, out of embarrassment, my eyes lighted on a turkey 
sandwich, and I ordered it. I didn't want a turkey sandwich. 
But I didn't want this long, agonizing moment when I couldn't 
make a decision to go on. Now, think of somebody who didn't 
have my education, my faith, my family, my position of 
responsibility. Think of them: they get off the bus in the 
middle of the night, and they've got to choose where they're 
going to sleep that night, where they're going to eat the next 
day, how do they get a job? How do they get to a job interview; 
all those decisions stretching before them.
    The longer they're institutionalized--again, I'd only been 
locked up 2 years, and I couldn't order from a menu. Think of 
all those options. They go from a position where every minute 
of their day is accounted for. They're told what to do, when to 
get up, who they're with, where they go, what they can do, and 
then, we're told, okay, you're free. Make all these choices. 
And the longer you're locked up, the less chance you have of 
being able to make intelligent choices, because you've been 
deprived of that, unless there is some transition, unless there 
is some support group for you, helping you, walking with you, 
thinking those things through.
    Mr. Scott. And a parole system helps that? I think I'd 
heard from your testimony that someone developing, having an 
incentive to put a parole plan together so that they convince 
the parole board that they're ready; they've got somewhere to 
go, something to do; they've gotten some education, and they've 
got an incentive to do that, because they've got to convince 
the parole board before they can get out that that makes more 
sense than ready or not, here I come.
    Mr. Wallenstein. Right, far more.
    Mr. Scott. I yield the balance of my time to the Gentleman 
from Maryland.
    Mr. Van Hollen. I thank my colleague, and again, thank the 
Chairman and the Ranking Member, Mr. Scott, for allowing me to 
participate here.
    Mr. Wallenstein, the core of your testimony was don't 
forget about the guys in the county jails, because there are 10 
million of those individuals. Is there a correlation between 
the people who have gone to jail and gone to prison? In other 
words, of the 650,000 people in prison, do most of them begin 
at some point or another in the county jails? And is that, 
therefore, an opportunity to get to them earlier? Is there not 
much of a correlation? Or is that data just not available?
    Mr. Wallenstein. No, it's there. It's a perfect 
correlation. Almost no one goes directly to a State prison. And 
even in serious offenses, there will be county jail time spent. 
The time is enormously productive, because it's right there in 
the community; the community based groups are there. That's why 
this legislation is so important, because as you push the 
collaborative potential between community based organizations, 
intergovernmental cooperation, and work at the local level, it 
isn't taking a bus, a train, or a plane. It's walking down the 
street. And the potential has not even begun to be tapped, 
which is really why I was pushing the county agenda so hard, 
because not only is it numerical in size and scope; it's right 
there in front of us.
    Mr. Van Hollen. Good. If there are any statistics, because 
I think you make a very good point; if there are any statistics 
showing that all the individuals, the 650,000 people we're 
talking about ending up in State and Federal prisons have 
earlier served time in local jails, any data you've got on 
that, because I think your point is a very good one: if you can 
catch people early and provide them the resources in the 
community and divert them out of, you know, the prison system 
at that point, it obviously would be money and time well spent.
    Mr. Wallenstein. The person in this country on this issue 
is Alan Beck, the chief of correctional statistics within the 
Bureau of Justice Statistics at the U.S. Department of Justice. 
He is respected from one end of the country to the other. If 
you engage Alan on this issue, there is no better person in the 
country.
    Mr. Wallenstein. Thank you.
    Mr. Hagy. And I think that was some of our significance on 
the Prisoner Reentry Initiative on the nonviolent offenders: 
get there before it become a bigger and bigger problem.
    Mr. Van Hollen. Thank you very much, Mr. Scott.
    Mr. Feeney. The gentleman yields back, and thank you, Mr. 
Van Hollen and Mr. Scott. We want to thank all of our witnesses 
for your testimony. The Subcommittee very much appreciates your 
contribution. All of it will be part of the record. In order to 
assure a full record and adequate consideration for this 
important issue, the record will be left open for additional 
submissions for 7 days. Also, any written question a Member 
wants to submit should be submitted within the same 7-day 
period.
    This concludes the oversight hearing on ``Offender Reentry: 
What is Needed to Provide Offenders with a Real Second 
Chance?'' Again, thank you for your cooperation. The 
Subcommittee is adjourned.
    [Whereupon, at 1:28 p.m., the Subcommittee adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

   Letter to the Subcommittee from Bill Hansell, President, National 
  Association of Counties (NACo), and Beverly O'Neill, President, The 
               United States Conference of Mayors (USCM)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Letter to the Subcommittee from Calvin Bass, President, and Kevin 
               Stout, Vice President, Lifer's Group, Inc.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Sample Questions submitted by Charlie Sullivan, Co-Director, Citizens 
            United for Rehabilitation of Errants (C.U.R.E.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Revised Prepared Statement of Arthur Wallenstein, Director, Montgomery 
            County Department of Correction & Rehabilitation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
